No. 20-97
IN THE

MASSACHUSETTS LOBSTERMEN’S ASSOCIATION, ET AL.,
v.

Petitioners,

WILBUR ROSS, SECRETARY OF COMMERCE, ET AL.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the District of Columbia Circuit
Brief for Intervenor Respondents in Opposition to the Petition for Certiorari
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served
with copies of the Brief in Opposition for Intervenor Respondents, via email (per
their consent), this 4th day of December 2020.
[See attached Service List.]

________________
Ian Fein
Counsel for Natural Resources Defense Council

SERVICE LIST
No. 20-97
Massachusetts Lobstermen’s Association, et al., v.
Wilbur Ross, Secretary of Commerce, et al.
Jonathan Calvin Wood
3100 Clarendon Blvd., Suite 610
Arlington, VA 22201-5330
jwood@pacificlegal.org
Counsel of Record for Petitioners Massachusetts Lobstermen’s Association, et al.
Jeffrey B. Wall, Acting Solicitor General
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Counsel of Record for Respondents Wilbur Ross, et al.
Paul J. Beard II
4470 W. Sunset Blvd.
Suite 93165
Los Angeles, CA 90027
paul.beard@fisherbroyles.com
Counsel of Record for Amici International Ass’n of Geophysical Contractors, et al.
Lawson Emmett Fite
700 N.E. Multnomah, Ste. 320
Portland, OR 97232
lfite@amforest.org
Counsel of Record for Amicus American Forest Resource Council
Ilya Shapiro
1000 Massachusetts Ave., NW
Washington, DC 20001
ishapiro@cato.org
Counsel of Record for Amicus Cato Institute
Barbara Anne Smith
211 North Broadway, Suite 3600
St. Louis, MO 63102
barbara.smith@bclplaw.com
Counsel of Record for Amici Utah Counties and Utah Representatives

